                                                                         .teDAcrc-p   fi>L P" i A



                         US SMALL BUSINESS ADMINISTRATION

~
                            OFFICE OF INSPECTOR GENERAL
                                 Washington, DC 20416
.~
". / •••951
    ··/ST\l~
              ~~"

                                                                       MEMORANDUM AUDIT
                                                                            REPORT
                                                                  Issue Date: June 27,2000
                                                                  Report Number: 0-18




To: 	               Antonio Valdez, District Director
                    Fresno District Office


From:               f1!1}~istant
                     for Auditing
                                                   Inspector General


Subject:            Audit of an Early Defaulted Loan to
                             Volumetrics, Inc.

       Attached is a copy of the subject audit report. The audit identified no instances
of noncompliance by the lender or borrower that contributed to the early default. Should
you or your staffhave any questions, please contact Garry Duncan at 202-205-7732.


Attachment

cc: 	     ANOffice ofFinancial Assistance
          ANOffice ofField Operations
••   ,   r      ""




                                AUDIT OF AN EARLY DEFAULTED LOAN TO                                  -
                                                VOLUMETRICS, INC.

                                              AUDIT REPORT NO. 0-18

                                                      June 27, 2000




             The finding In this report Is the conclusion of the OIG's Auditing Division based on testlnl of the
             auditee's operations. The finding and recommendations are subject to review, management decision,
             and corrective action in accordance with existing Alency procedures for follow-up and resolution.
             Tbls report may contain proprietary information subject to the provisions of 18 USC 1905 and mUit
             not be released to the public or anotber agency without permission of the Office of Inspector
             General.
 ·     .

                                         BACKGROUND

         The Small Business Administration (SBA) is authorized under section 7(a) of the Small 

 Business Act to provide fInancial assistance to small businesses in the form of government 

 guaranteed loans. SBA guaranteed loans are made by participating lenders under an agreement 

 (SBA Form 750) to originate, service, and liquidate loans in accordance with Administration 

 rules and regulations. 


              In April 1997 the Money Store Investment Corporation (lender) approved loan number
 C )€ c;.t.j-    J to Volumetrics Inc. (borrower) under Preferred Lenders Program (PLP) procedures.
 The loan was made to refInance a note held by a second lender, c.. e-,,_. '+         :J and for the
 purchase of C             ~ ._4                       J California The borrower defaulted in (~. 4 1
[~~ .'+J and fIled for bankruptcy in November of the same year. SBA paid $781,623, including
 interest, to purchase the loan guarantee.

                               AUDIT SCOPE AND OBJECTIVE

        This report provides the conclusions of an audit of the Volumetrics loan. The loan was
 judgmenta1ly selected for review as part of the Office of Inspector General's ongoing program to
 audit SBA loans charged off or transferred to liquidation within 36 months of origination (early
 default).

       The audit objective was to determine if the early loan default was caused by lender or
 borrower noncompliance with SBA's requirements. The SBA and lender loan fIles were
 reviewed and district office and lender personnel were interviewed. The borrower's fInancial
 and bankruptcy records were analyzed. The fieldwork was accomplished between July through
 September 1999. The audit was conducted in accordance with Government Auditing Standards.

                                         RESULTS OF AUDIT

        The audit showed that the loan was processed, closed, and disbursed in compliance with
the loan agreement and SBA's requirements. Based on interviews and documentation in the loan
fIle, we concluded the loan defaulted due to a lack of adequate sales volume that led to
bankruptcy.
